      OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION



     Better Planning and Oversight Could Have Reduced
     Construction Delays and Costs at the Kabul Military
                      Training Center




                                       October 26, 2011


SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center
      OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


October 26, 2011

General James N. Mattis
Commander, U.S. Central Command

General John R. Allen
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General William B. Caldwell, IV
Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan

Mr. Terry Edwards
Director, Air Force Center for Engineering and the Environment

This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s audit of U.S. Air Force Center for Engineering and the Environment (AFCEE)
infrastructure projects at the Kabul Military Training Center (KMTC). The report includes four
recommendations. These include two recommendations to the Commanding General, Combined
Security Transition Command-Afghanistan (CSTC-A), to strengthen the planning process and two
recommendations to the Director, AFCEE, to strengthen contract administration and to seek
reimbursement from one of the contractors for the cost of electrical repairs related to poor
performance by its Afghan subcontractors.

When preparing the final report, we considered comments from CSTC-A and AFCEE. These comments
are reproduced in appendices II and III, respectively. CSTC-A concurred with both recommendations
made to the CSTC-A Commanding General. AFCEE stated that it has taken steps to implement the first
recommendation regarding contract administration, but disagreed with the recommendation to seek
reimbursement from the contractor because the contractor had not willfully avoided its responsibility or
acted in bad faith. Contract performance, including work of the subcontractors, is the responsibility of
the prime contractor, irrespective of the prime contractor’s conduct. Therefore, we are retaining the
recommendation.

A summary of this report is on page ii. We conducted this performance audit under the authority of
Public Law No. 110-181, as amended; the Inspector General Act of 1978; and the Inspector General
Reform Act of 2008.




Steven J Trent
Acting Special Inspector General
   for Afghanistan Reconstruction

SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center             Page i
                SIGAR
                                                           SIGAR Audit-12-2                                           October 2011
                                                              Better Planning and Oversight Could Have Reduced
                                                              Construction Delays and Costs at the Kabul Military
                                                                               Training Center
Special Inspector General for Afghanistan Reconstruction
What SIGAR Reviewed
A key objective of the coalition efforts in Afghanistan is to build the country’s capacity to provide for its own security by
housing, training, equipping, and sustaining the Afghan National Security Forces. The Combined Security Transition
Command–Afghanistan (CSTC-A) provided $140 million to the Air Force Center for Engineering and the Environment
(AFCEE) to support construction of facilities at the Kabul Military Training Facility (KMTC), Afghanistan’s primary training
base for new recruits into the Afghan National Army (ANA). KMTC is a critical component of CSTC-A’s training mission
and the overall strategy to transition security to Afghan security forces. It is being built in phases. AFCEE has awarded
three task orders, one for each phase. The task orders for Phases I and II were awarded to AMEC Earth and
Environmental, Inc. (AMEC) and the task order for Phase III was awarded to ECC International (ECC). AFCEE officials
were responsible for providing contract oversight of construction activities. This report examines (1) construction at
KMTC, including changes in cost and schedule, the reasons for changes, and whether construction met contract
requirements, (2) construction oversight and the completeness of contract files, and (3) plans for sustaining KMTC
facilities once constructed. To accomplish these objectives, we reviewed relevant contract files; performed site
inspections at KMTC; and interviewed officials from CSTC-A and AFCEE, among others. We conducted our work at AFCEE
headquarters in San Antonio, Texas; Kabul, Afghanistan; and Washington, D.C., among other places from December
2010 to October 2011, in accordance with generally accepted government auditing standards.

What SIGAR Found
KMTC has experienced both cost growth and schedule delays. Cost for Phases I and II grew by a total of $12.5 million—
$3.3 million for Phase I and $9.2 million for Phase II. Phase I was completed August 31, 2009, 1 year and 6 months late.
Phase II, which ran concurrently with Phase I, was completed on January 9, 2010, nearly 2 years late. The cost growth
and delays occurred due to a variety of factors, including additional work, poor contractor performance, and inaccurate
site information. Overall, AFCEE data show that the KMTC schedule delays are not unique because the large majority of
AFCEE projects for CSTC-A—80 percent—experienced similar delays. Oversight weaknesses occurred in Phases I and II
at KMTC; however, AFCEE has strengthened oversight of Phase III. Although the quality assurance contractor identified
electrical problems as early as June 2008, AFCEE did not address the problems until fires began to occur at the end of
that year. Two key factors contributed to the electrical problems—an acceleration of the construction schedule without
a commensurate increase in oversight and the use of substandard and counterfeit supplies. AFCEE has paid more to
repair the electrical damage than required under the terms of the contracts—as much as $4.3 million. SIGAR also found
that, although the Federal Acquisition Regulation directs that contract files contain sufficient documentation to
constitute a complete history of the transaction, the KMTC task order files contained incomplete or contradictory
information as to the reasons for modifying the contract. Therefore, it was not possible always to ascertain the reasons
for increases in costs or schedule.
Sustainment of completed KMTC construction has been transferred to an operations and maintenance contract that
covers the sustainment of multiple Afghan National Security Forces facilities, including KMTC. However, the funding
under this contract is being expended faster than anticipated. SIGAR has an ongoing audit of the implementation of two
operations and maintenance contracts for the sustainment of these facilities.


What SIGAR Recommends
SIGAR is making two recommendations to the Commanding General, CSTC-A, in coordination with the Director, AFCEE,
to strengthen the planning process. CSTC-A concurred with both recommendations. SIGAR is also making two
recommendations to the Director, AFCEE, to strengthen contract administration and to seek reimbursement from one
of the contractors for the cost of electrical repairs related to poor performance by its Afghan subcontractors. AFCEE
stated that it has taken steps to implement the first recommendation regarding contract administration. However it
disagreed with the second recommendation stating that AMEC had not willfully avoided its responsibility. Irrespective
of AMEC’s conduct, contract performance, including work of the subcontractors, is the responsibility of the prime
contractor. Therefore, we are retaining the recommendation.



                    For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil


SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center                                        Page ii
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
Construction at KMTC Is Taking Longer Than Planned and Costing More Than
   Originally Budgeted ................................................................................................................................ 5
Quality Assurance Shortfalls In Phases I and II Contributed to Electrical
   Problems, But Oversight Has Improved In Phase III ............................................................................. 14
KMTC Is Not Sustainable Without Continued U.S. Assistance .................................................................... 19
Conclusion ................................................................................................................................................... 19
Recommendations ...................................................................................................................................... 20
Comments ................................................................................................................................................... 20
Appendix I: Scope and Methodology ......................................................................................................... 22
Appendix II: Comments from The NATO Training Mission-
   Afghanistan/Combined Security Transition Command-Afghanistan ................................................... 23
Appendix III: Comments from the Air Force Center for Engineering and the
   Environment ......................................................................................................................................... 28


TABLES

Table 1: Contract FA8903-06-D-8507, Task Order 05 (Phase I, Cost-Plus-Fixed-
    Fee) and Modifications ........................................................................................................................... 6
Table 2: Contract FA8903-06-D-8507, Task Order 06 (Phase II, Cost-Plus-Fixed-
    Fee) and Modifications .......................................................................................................................... 8


PHOTOS

Photo 1: KMTC Phases I and II Completed Construction of Barracks Buildings........................................... 3
Photo 2: KMTC Phase III Ongoing Construction ........................................................................................... 4
Photo 3: Gymnasium Used as Barracks...................................................................................................... 10
Photo 4: KMTC Phase III Construction Site ................................................................................................ 10
Photo 5: KMTC Phase III Construction – Previously Unknown Buried Soviet-era
   Foundation ........................................................................................................................................... 13




SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center                                                                Page iii
ABREVIATIONS

AFCEE             Air Force Center for Engineering and the Environment
AMEC              AMEC Earth and Environmental, Inc.
ANA               Afghan National Army
ANSF              Afghan National Security Forces
CO                Contracting Officer
COR               Contracting Officer’s Representative
CSTC-A            Combined Security Transition Command - Afghanistan
DNC               Discrepancy and Non-Compliance
DPW               Department of Public Works
ECC               ECC International
FAR               Federal Acquisition Regulation
ITAG              Installation Training Advisory Group
KMTC              Kabul Military Training Center
NATO              North Atlantic Treaty Organization
SIGAR             Special Inspector General for Afghanistan Reconstruction




SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center   Page iv
    Better Planning and Oversight Could Have Reduced Construction Delays and
                     Costs at the Kabul Military Training Center


One objective of coalition efforts in Afghanistan is to build the country’s capacity to provide for its own
security by training and equipping the Afghan National Security Forces (ANSF). 1 A key part of this
mission is the training of new recruits into the Afghan National Army (ANA). Between fiscal years 2005
and 2011, the U.S. Congress appropriated about $39.5 billion for the Afghanistan Security Forces Fund,
which provides the funding to train and equip the ANSF. All U.S. funding for ANSF goes through the
Combined Security Transition Command-Afghanistan (CSTC-A). CSTC-A’s mission includes developing
the ANA as a self-sustaining, standing army.

The Kabul Military Training Center (KMTC) is Afghanistan’s primary training base for new recruits into
the ANA. At the time the first plan for developing KMTC was developed in 2006, the size of the ANA was
set at 70,000 personnel, but is now planned to grow to approximately 195,000 by December 2013.
Since 2006, the plans for KMTC have changed three times to accommodate the ANA’s planned growth.
The number of recruits at KMTC has grown from 4,000-6,000 in November 2006 to almost 11,000 in
May 2011. As a result of these increases, through August 2011, $140 million has been obligated for
construction to expand KMTC.

Between fiscal years 2006 and 2010, CSTC-A funded three task orders through the Air Force Center for
Engineering and the Environment (AFCEE) to support construction at KMTC. Construction includes
barracks, classrooms, administration buildings, training facilities, and associated utilities including power
generation and wastewater treatment. Construction for Phases I and II is complete and the facilities are
being used by the ANA. A task order was awarded September 29, 2010, for Phase III construction.
Planning is underway for additional phases. In addition to the $140 million already obligated, CSTC-A
plans to spend $20 million more for KMTC expansion through fiscal year 2012.

This report is part of a series of performance audits by the Special Inspector General for Afghanistan
Reconstruction (SIGAR) examining contract outcomes, costs, and oversight. This report examines
(1) construction at KMTC, including changes in cost and schedule, the reasons for changes, and whether
construction met contract requirements; (2) construction oversight and the completeness of contract
files; and (3) plans for sustaining KMTC facilities once constructed.

To accomplish these objectives, we reviewed relevant contract files, including the statements of work,
modifications, available construction plans and specifications, and quality assurance plans and reports.
We examined criteria and guidance defined in the Federal Acquisition Regulation (FAR), as well as
AFCEE's final and draft policies. We conducted a site visit to KMTC, where we viewed completed and
ongoing construction, and we interviewed officials from AFCEE headquarters in San Antonio, Texas;
AFCEE-Afghanistan; CSTC-A; U.S. Army Corps of Engineer Afghanistan; AMEC Earth and Environmental,
Inc. (AMEC); and ECC International (ECC). We also interviewed officials from Versar, responsible for
quality assurance at KMTC, and MACTEC, responsible for site conceptual master planning, each under

1
ANSF includes the Afghan National Army and the Afghan National Police.
SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center                Page 1
separate contracts with AFCEE. We conducted our work at AFCEE headquarters in San Antonio, Texas;
Kabul, Afghanistan; Washington, D.C.; AMEC’s corporate office in Plymouth Meeting, Pennsylvania;
Versar’s office in Westminster, Colorado; and MACTEC’s office in Kennesaw, Georgia, from December
2010 to October 2011, in accordance with generally accepted government auditing standards. A more
detailed discussion of our scope and methodology is in appendix I.


BACKGROUND

KMTC is a former Soviet military training base built in the 1980s. KMTC provides the ANA with individual
training for soldiers, noncommissioned officers, and officers to supply the ANA with personnel capable
of conducting successful military operations in defense of the Islamic Republic of Afghanistan. As stated
in the conceptual master plan, KMTC facilities include classrooms and barracks, among other facilities,
for personnel stationed there. Training ranges support the full range of live-fire training required for all
ANA weapons. Maneuver training areas support unit training up to kandak 2 level. Vehicle training
areas permit operator training on all vehicles used by the ANA.

AFCEE performs construction contracting services on behalf of CSTC-A. A memorandum of agreement,
dated August 8, 2006, between AFCEE and CSTC-A delineates the services and the costs of those services
that AFCEE will provide to CSTC-A, including contracting for real property construction and quality
assurance services. In accordance with the memorandum of agreement, AFCEE established an
in-country contracting officer’s representative (COR) and provided contract administration and technical
support.

Through April 2011, AFCEE has obligated approximately $140 million for construction at KMTC for three
task orders under an indefinite-delivery indefinite-quantity contract: 3 Phase I at $41 million, Phase II at
$28 million, and Phase III at $71 million. AFCEE awarded cost-plus-fixed-fee task orders for Phases I and
II to AMEC and a firm-fixed-price task order for Phase III to ECC. 4 Work required under these task orders
included planning, design, and construction. AFCEE decided to shift from using cost-plus contracts to a
firm-fixed-price contract in response to the lessons it learned from Phases I and II. Specifically, AFCEE
found in 2010 that site conditions were known, security conditions were relatively stable, suppliers were
available, and the scope of work was reasonably defined.




2
 A training kandak is an ANA military training unit of about 1,200 soldiers.
3
 Indefinite-delivery indefinite-quantity contracts provide for an indefinite quantity of services during a fixed period
of time. They are used when the government cannot predetermine, above a specified minimum, the precise
quantities of supplies or services that will be required during the contract period. The government places delivery
orders (for supplies) or task orders (for services) against a basic contract for individual requirements. Minimum
and maximum quantity limits are specified in the basic contract as the number of units (for supplies) or as dollar
values (for services).
4
 Under cost-plus contracts the government agrees to pay all costs associated with the work under a contract or
task order that are reasonable, allowable under the FAR, and allocable to the contracted work. The government
bears the risk of any increase in costs. Under firm-fixed-price contracts the contractor agrees to provide the
contracted goods or services at an agreed upon price and bears the risk of any increased costs. However, if costs
increase due to unanticipated conditions or incomplete information provided by the government the contractor
can request an equitable adjustment to cover its increased costs.
SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center                          Page 2
Construction at KMTC consists of student barracks, classrooms, administrative office buildings, and
other training support facilities as follows. Specifically,

    •   Phase I, awarded to AMEC, included the planning and construction of four 600-person student
        barracks and two administrative buildings, a 2,736 square meter dining facility, a 6,000 square
        meter multi-purpose gymnasium, and extensive related utility and site work.
    •   Phase II, also awarded to AMEC, included the planning and construction of two student
        battalion administration buildings, four additional 600-person student barracks, six
        classroom/student support buildings, and one Military Police Compound, along with associated
        work such as potable water provision and distribution, storm water management, and asphalt
        roads.
    •   Phase III, awarded to ECC, included the planning and construction of six barracks buildings,
        two office buildings, an obstacle and training course, post exchange/bank, laundry facility,
        40 classrooms for literacy, a fire station plus other structures, and renovation and modifications
        of existing facilities.

Photos 1 and 2 show some of the KMTC facilities.


        Photo 1: KMTC Phases I and II Completed Construction of
        Barracks Buildings




        Source: SIGAR, March 12, 2011




SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center              Page 3
         Photo 2: KMTC Phase III Ongoing Construction




         Source: SIGAR, March 12, 2011



AFCEE Selects Contractors Through a Two-Tiered Approach

AFCEE uses a two-tiered approach to select contractors for its construction projects. First, under its
Heavy Engineering, Repair, and Construction business model, AFCEE solicits bids, selects contractors,
and awards multiple contracts, in accordance with the FAR, to provide heavy construction and
engineering activities worldwide. Second, AFCEE headquarters requests proposals covering potential
heavy construction and engineering projects exclusively from the Heavy Engineering, Repair and
Construction prime contractors. Contractors interested in competing for the work provide proposals.
The AFCEE contracting officer (CO) located in San Antonio, Texas, determines which contractor will
provide the best value for the dollar, and the selected contractor is awarded the task order. 5 The task
orders for all three phases at KMTC were competitively awarded.

AFCEE Outsources Quality Assurance, but the Contracting Officer is Ultimately Responsible for
Contractor Oversight

AFCEE engages engineering contractors to provide quality assurance for its construction projects, but
the AFCEE CO has final responsibility for monitoring contractor performance and holding the contractor
accountable for its actions. The CO for KMTC, located in San Antonio, Texas, delegates day-to-day
oversight to a deployed COR based in Kabul and a COR based in San Antonio, Texas, who administer the
contracts. Quality assurance services for all phases at KMTC were awarded under contract to Versar,
Inc. 6 The contract was awarded first to Versar, Inc., and subsequently to Jacobs Government Services
Company. Versar continued to perform the quality assurance function for the project sites at KMTC as
Jacobs’ subcontractor after Jacobs assumed the role as the primary quality assurance contractor.

5
 A task order is an order for services placed against an established contract, in this case the Heavy Engineering,
Repair, and Construction contract.
6
 This was a time-and-materials task order. According to the FAR, a time-and-materials contract provides for the
acquisition of supplies or services on the basis of direct labor hours at fixed hourly rates and actual costs of
materials. The task order covers quality assurance services at multiple AFCEE construction projects, including
KMTC.
SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center                        Page 4
AFCEE’s COR in Kabul is, in turn, supported by the quality assurance contractor, Versar, which maintains
personnel on-site at KMTC. Versar works with and reports its observations to AFCEE’s COR. AFCEE's
COR for KMTC is not located on-site and is responsible for multiple projects, which results in Versar's
personnel serving as the government's continual on-site monitors for the project. Versar acts as AFCEE’s
eyes and ears at the construction site and reports regularly to the COR. Versar's quality assurance
activities include, but are not limited to, monitoring contractor performance; reviewing building designs;
inspecting and testing construction materials; analyzing contractor cost and schedule performance; and
inspecting construction quality through routine, pre-final, and final project assessments. Versar
documents and provides to the AFCEE COR the results of its oversight activities in daily and weekly
activity reports, construction deficiency logs, and contractor non-compliance logs, and it provides AFCEE
recommendations on approval of designs and materials. AFCEE, in turn, reviews Versar’s reporting and
adds its observations as comments to the Weekly Activity Report. It is the COR’s responsibility to act on
any concerns identified by Versar. Versar has no authority to direct the contractor; it is up to AFCEE to
act on Versar’s reporting.

AFCEE Also Contracts for Site Planning

In 2006, CSTC-A tasked AFCEE with awarding a prime contract to develop and update a master planning
document for ANSF facilities. AFCEE awarded a time-and-materials contract 7 to MACTEC in April 2006.
The contract states that MACTEC would develop planning documents for facilities related to CSTC-A’s
mission as identified by CSTC-A’s Combined Joint-Engineering Office. As of July 2011, MACTEC had been
paid more than $85.8 million to design ANSF facilities, including conducting site surveys, meeting with
Afghan military and police officials, and developing the requirements for new facilities, such as the type
of housing for military and police personnel, the primary purpose of the facility, and the types of
supplies needed. As part of that contract, MACTEC developed the conceptual master plan for KMTC.


CONSTRUCTION AT KMTC IS TAKING LONGER THAN PLANNED AND COSTING MORE THAN
ORIGINALLY BUDGETED

Both KMTC Phases I and II experienced cost growth and took longer than originally scheduled due to a
variety of factors. These factors included added work, poor contractor performance, and inaccurate site
information. Phase III is also beginning to experience some schedule delays due to unanticipated site
conditions. The planning process failed to identify important site conditions, which, in turn, led to
delays and higher costs. CSTC-A did not bring together all pertinent information, such as topography
and location of utility lines, before contractors were invited to bid on work. Therefore, contractors
awarded the work had limited knowledge of the site conditions until they prepared the detailed
construction plans. Our review of AFCEE data for all its construction projects in Afghanistan showed that
KMTC is not unique because most AFCEE construction projects for CSTC-A have experienced schedule
delays.

KMTC Experienced Cost Growth and Schedule Delays

Construction at KMTC cost more than originally budgeted and has taken longer than originally planned.
Work at KMTC is being done in phases under individual task orders. Each task order includes the dollar
value of the work to be done and a period of performance during which the work is to be completed.

7
 This was a time-and-materials task order. According to the FAR, a time-and-materials contract provides for the
acquisition of supplies or services on the basis of direct labor hours at fixed hourly rates and actual costs of
materials.
SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center                      Page 5
Phase I, originally scheduled to be completed on March 11, 2008, and was not completed until August
31, 2009, nearly 1 year and 6 months late. Phase II, which ran concurrently with Phase I, was originally
scheduled to be completed on January 24, 2008, but was not completed until nearly 2 years later,
January 9, 2010. Cost for Phases I and II grew by a total of $12.5 million—$3.3 million for Phase I and
$9.2 million for Phase II. Because Phases I and II were constructed under cost-plus task orders, CSTC-A
paid all the additional costs. Phase III, scheduled to be completed by May 22, 2011, is now projected to
be completed January 29, 2012, which will be 8 months late.

Delays and cost growth were due to a variety of factors, including additional work added to the task
orders, unanticipated site conditions at the time the task orders were awarded, contractor performance
problems, and security. Inadequate planning and oversight contributed to the problems encountered.
Table 1 outlines the cost, schedule, and scope changes for the Phase I construction. As shown in table 1,
Phase I had eight modifications, one for a ceiling price increase, one for both a ceiling price increase and
a task order completion extension, five for task order completion date extensions and one for
administrative changes.


Table 1: Contract FA8903-06-D-8507, Task Order 05 (Phase I, Cost-Plus-Fixed-Fee) and
Modifications
Award                   Date           Purpose                                    Cost/Schedule Change

Basic Contract          Nov. 8, 2006   Construction of the student barracks,    Originally for
                                       dining facility, and gymnasium for KMTC. $37.6 million.

Modification (Mod) 1    Feb. 2, 2007   Expanded scope to include additional       Cost increased by
                                       work, including a new site plan,           $1.8 million.
                                       unexploded ordnance removal/demining
                                       operations, scrap removal, and
                                       installation of four additional buildings
                                       with all associated electrical and heating
                                       and cooling work.

Mod 2                   Oct. 24, 2007 Extended task order date.                   Task order completion
                                                                                  date extended from
                                                                                  March 11, 2008 to
                                                                                  July 11, 2008.

Mod 3                   Apr. 18, 2008 Revised statement of work and made
                                      administrative changes.

Mod 4                   Apr. 30, 2008 Extended task order date.                   Task order completion
                                                                                  date extended from
                                                                                  July 11, 2008 to
                                                                                  November 1, 2008.

Mod 5                   Sep. 3, 2008   Extended task order date and made          Task order completion
                                       administrative changes.                    date extended from
                                                                                  November 1, 2008 to
                                                                                  January 31, 2009.




SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center                    Page 6
Award                    Date             Purpose                                       Cost/Schedule Change

Mod 6                    Dec. 2, 2008     Extended task order date and made             Task order completion
                                          administrative changes.                       date extended from
                                                                                        January 31, 2009 to
                                                                                        March 30, 2009.

Mod 7                    Jan. 12, 2009    Extended task order date.                     Task order completion
                                                                                        date extended from
                                                                                        March 30, 2009 to
                                                                                        June 30, 2009.

Mod 8                    Jan. 20, 2010    Added funds for electrical repairs caused     Cost increased by
                                          by faulty construction, completion of         $1.5 million.
                                          heating and air conditioning for the          Task order completion
                                          gymnasium, storm drain work, and              date extended from
                                          shower drain replacement in two               June 30, 2009 to
                                          buildings; extended task order date.          August 31, 2009.

Source: SIGAR analysis of Contract FA8903-06-D-8507, Task Order 05, dated November 8, 2006 and all task order
modifications.


Phase I contract cost grew 9 percent, from $37.6 million to $40.9 million through two increases.
Specifically, modification 1 in February 2007, added $1.8 million in work and modification 8 in January
2010, added $1.5 million in work.

Phase I also included modifications that extended the task order date, but did not add funds (for
example, modifications 6 and 7.) According to an AFCEE official, these modifications occur because
under cost-plus task orders, the contractor continues to perform as long as funds remain available.
Sometimes work progresses more slowly than expected and the contractor incurs costs at a slower pace.
Consequently, the task order ending date will be reached before the task order fund ceiling is reached.
In those cases, AFCEE extends the task order dates to allow the work to continue. Factors that led to
Phase I task order date extensions included unanticipated site conditions; the failure of a subcontractor
to pay its workers, leading to a shortage of workers; severe weather; and some building redesign.

As shown in Table 2, Phase II had 13 modifications, three for a ceiling price increases, five for both a
ceiling price increase and a task order completion extensions, three for task order completion date
extensions and two for administrative changes. The extensions were due to the same reasons as in
Phase I—the contractor’s progress and spending were slower than expected.




SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center                          Page 7
Table 2: Contract FA8903-06-D-8507, Task Order 06 (Phase II, Cost-Plus-Fixed-Fee)
and Modifications
Award                   Date            Purpose                                    Cost/Schedule Change

Basic Contract          Mar. 2, 2007    Construct and renovate student           Originally for
                                        barracks, dining facility, and gymnasium $19.6 million.
                                        for KMTC.

Modification (Mod) 1    Mar. 9, 2007    Corrected task order dates and made        Task order completion
                                        administrative changes.                    date extended from
                                                                                   January 24, 2008 to
                                                                                   January 27, 2008.

Mod 2                   Aug. 3, 2007    Increased ceiling price to allow           Cost increased by
                                        movement of power lines, removal of        $388,921.
                                        hazardous materials, and construction
                                        of additional unnamed facilities.

Mod 3                   Oct. 17, 2007   Expanded scope to include electrical       Cost increased by
                                        services to four emergency warehouses,     $2.3 million.
                                        as well as wastewater plant                Task order completion
                                        modifications; extended task order date.   date extended from
                                                                                   January 27, 2008 to
                                                                                   July 31, 2008.

Mod 4                   Oct. 23, 2007   Administrative correction.



Mod 5                   Feb. 11, 2008   Expanded scope to include additional       Cost increased by
                                        wastewater work and addition of two        $2.8 million.
                                        generators to the power supply system;     Task order completion
                                        extended task order date.                  date extended from
                                                                                   July 31, 2008 to
                                                                                   January 3, 2009.

Mod 6                   Apr. 3, 2008    Incorporated revised statement of work
                                        dated February 29, 2008 and made
                                        administrative changes.

Mod 7                   May 30, 2008    Expanded scope to renovate two            Cost increased by
                                        buildings, one to add a wall dividing     $173,286.
                                        large open area into two smaller areas
                                        and the other to add a series of interior
                                        walls to change one large open area into
                                        multiple smaller rooms.




SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center                     Page 8
Award                     Date              Purpose                                      Cost/Schedule Change

Mod 8                     Sep. 23, 2008     Expanded scope to add walls to one           Cost increased by
                                            building to convert two large rooms into     $606,732.
                                            12 smaller rooms better suited for           Task Order completion
                                            classrooms and to add hand wash              date extended from
                                            troughs to laundry rooms in eight            January 3, 2009 to
                                            barracks; extended task order date.          January 24, 2009.

Mod 9                     Dec. 2, 2008      Extended task order date and made            Task order completion
                                            administrative changes.                      date extended from
                                                                                         January 24, 2009 to
                                                                                         March 24, 2009.

Mod 10                    Apr. 1, 2009      Extended task order date.                    Task order competion
                                                                                         date extended from
                                                                                         March 24, 2009 to
                                                                                         June 30, 2009.

Mod 11                    Jan. 15, 2010     Expanded scope to construct a storm          Cost increased by
                                            water management system to protect           $102,139.
                                            the military police garrison building        Task order completion
                                            footings and sidewalks from water            date extended from
                                            seepage and soil erosion; extended task      June 30, 2009 to
                                            order date.                                  September 30, 2009.

Mod 12                    Jan. 25, 2010     Increased ceiling to complete electrical     Cost increased by
                                            repairs and for costs associated with        $2.2 million.
                                            extending task order dates; extended         Task order completion
                                            task order date.                             date extended from
                                                                                         September 30, 2009 to
                                                                                         January 9, 2010.

Mod 13                    Aug. 16, 2011     Increased ceiling for previously             Cost increased by
                                            completed electrical repairs.                $641,272.

Source: SIGAR analysis of Contract FA8903-06-D-8507, Task Order 06, dated March 2, 2007, and all task order
modifications.


Phase II contract cost grew 47 percent, from $19.6 million to $28.8 million through eight increases in the
ceiling price. The principal reason for the cost increases was work added to the task order as additional
funds became available to CSTC-A and were provided to AFCEE, allowing Phase II to proceed with
unforeseen construction required by the expanding size of the ANA. For example, modification 3 in
October 2007 had an increase of $2.3 million to allow construction of four emergency warehouses, as
well as wastewater plant modifications. Modification 5 in February 2008, had an increase of $2.8 million
for additional wastewater work and additions of two generators to the power supply system. Other
modifications increasing price were to allow the contractor to correct issues that had not been apparent
prior to the start of work due to unanticipated site conditions, such as buried older foundations,
resulting from a lack of detailed site surveys or failure to repair earlier work. According to AFCEE
officials, because the Phase I and II work was done under a cost plus task order, CSTC-A was responsible
for paying for repairs to earlier work as long as the costs were within the scope of the contract. Photo 3
illustrates the use of a gymnasium for housing to deal with the expanding number of recruits.


SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center                           Page 9
Photo 3: Gymnasium Used as Barracks




Source: SIGAR, March 12, 2011

Phase III, awarded on September 29, 2010, is also experiencing schedule delays. The initial award was
for $74.6 million and completion was scheduled for May 22, 2011. The schedule delays are due to site
conditions that were not apparent prior to the start of work resulting from a lack of detailed site
surveys. For example, two buildings had to be relocated due to unacceptable terrain slope. The new
location had poles for power lines located in the middle of a barracks location, which then had to be
removed concurrent with construction. Photo 4 shows the poles located inside the perimeter of the
barracks building. At the same time, as discussed below, the contract value was reduced by $3.8 million
to reflect the removal of some work.


Photo 4: KMTC Phase III Construction Site


                                                                          Poles for power
                                                                          lines located
                                                                          middle of barracks




Source: SIGAR, March 12, 2011

ECC, the Phase III contractor, submitted a proposed modification to AFCEE in January 2011. The
proposed modification included removing some of the original work from the task order; a request for
equitable adjustment for the costs associated with the unanticipated site conditions; and a time

SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center          Page 10
extension also for the unanticipated site conditions. The proposed time extension was for 62 days or
through July 2011. On July 5, 2011, AFCEE awarded modification 1 to ECC’s task order. Due to a
reduction in the amount of work to be done in Phase III, the modification removed $3.8 million from the
contract. Although Phase III is a firm-fixed-price task order, a contractor is allowed to request equitable
adjustments (price increases) if it encounters problems beyond its control. Because the proposed
modification included removing some work from the task order that resulted in an overall credit back to
AFCEE as well as the increased cost for some of the other work, there was a net reduction in contract
value.

Further delays are possible. In AFCEE’s Weekly Activity Report for the period May 1-7, 2011, AFCEE
expressed growing concern with schedule and pace of progress. It stated that the latest contractor
report indicated a construction completion date of January 19, 2012. AFCEE also noted that although
the contractor was on double shifts, productivity had not increased enough to compensate for the
schedule delays.

Security is also affecting schedule. According to ECC officials, interruptions to construction workers’
access to the KMTC site, materials deliveries, ECC staff, and Versar staff are common due to the fact that
the area surrounding the site remains a prime target for insurgent activities. In April 2011, access to
KMTC was sharply limited due to demonstrations and a bombing near the main KMTC gate. AFCEE’s
Weekly Activity Report for May 1-7, 2011 also noted that the KMTC security posture remained high and
that stringent security measures were affecting labor hours and the delivery of material. Security issues
along Afghan supply routes and within Pakistan also created challenges and delays in the delivery of
equipments and materials. The majority of deliveries of the construction materials and equipment have
to be shipped via supply routes from Pakistan or former Soviet Union countries, and then reach Kabul
via the “Ring Road”. 8 It is not uncommon for key materials to be delayed, including at the border
awaiting customs clearance.

Construction Quality Met Contract Standards, but a Questionable Construction Practice was
Observed

Other than electrical problems discussed later in this report, the quality of construction at KMTC met
and is meeting contract standards for Phases I, II, and III. Our engineer inspected KMTC in May 2011,
and found that the buildings were constructed within contract specifications based on the criteria
described in the contract statement of work and related technical specifications.

Most of the KMTC Phase III buildings were under construction at the time of our visit. However,
underground utilities were just getting started. Constructing vertical structures first is a questionable
construction practice. With open trenches around buildings, it can become difficult (and even
dangerous) for the building construction workers to access the site and move construction materials
into the structures. Additionally, in some cases, open trenches close to buildings may cause structural
failures in the building itself. Nevertheless, as stated above, the quality of construction at KMTC met
contract standards.

In commenting on a draft of this report, CSTC-A stated that contractors frequently plan construction
activities in parallel to drive down the overall schedule, even though individual elements may take
longer. CSTC-A added that, in the case of KMTC Phase III, the structural features of work was part of the

8
 Highway 1 or A01, formally called the Ring Road, is a 2,200 kilometer nationwide highway network circulating
Afghanistan, connecting Kabul, Ghazni, Kandahar, Farah, Heart, and Mazar-e-Sharif. It has extensions that also
connect Jalalabad, Delaram, Islam Qala, and several other cities.
SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center                    Page 11
critical path and needed to start immediately. As such, utility and site work ran in parallel with the
structural features during some period of time. According to CSTC-A, risks were assessed, mitigation
strategies were implemented, and the contractor moved forward re-evaluating the risks as construction
progressed.

CSTC-A’s Failure to Integrate Site Information Contributed to Schedule Delays and Cost
Growth

CSTC-A’s and AFCEE’s current planning process failed to identify important site conditions, which, in
turn, led to delays and higher costs. Facility master planning requires detailed site information.
Typically, for U.S. military facilities the military services have a Department of Public Works (DPW) at
each facility that integrates site information, such as the location of existing buildings, topography, and
utility lines. CSTC-A currently does not provide a capability comparable to a DPW, but is attempting to
build a public works capability to improve Afghan oversight. In the interim, CSTC-A has a two-phase
process for planning at KMTC. The first phase is the conceptual master plan. The second phase is the
detailed plan prepared by the construction contractor. The construction contractors bid on the KMTC
task orders based on the information contained in the conceptual master plan and a limited tour of the
construction location. The construction task order then required the construction contractor to provide
a detailed plan.

    •    Conceptual master planning at KMTC had been done by MACTEC through a contract funded by
         CSTC-A and awarded and administered by AFCEE. The KMTC conceptual master plan is a high-
         level plan showing the broad outline of how KMTC will be built. Rather than show specific
         geographic coordinates for building locations, the plan shows “bubbles” where certain types of
         buildings, including barracks, offices, and classrooms will be located. Although MACTEC’s
         contract was sufficiently broad to allow it to provide more in-depth planning, CSTC-A did not ask
         MACTEC to complete a detailed site survey. Instead, CSTC-A, through AFCEE direction, had
         MACTEC conduct a limited survey that mainly consisted of “windshield surveys” 9 of the areas at
         KMTC where the facilities were to be developed. AFCEE officials said that the initial site survey,
         which affected Phase I and II planning, was limited because of existing insurgent activity and
         because the site had not been demined. To expedite work at KMTC, demining and site planning
         were done simultaneously.
    •    Although the conceptual master plan is a high-level plan, and as such does not contain the level
         of detail required for actual construction, it does incorporate certain basic geotechnical
         information, such as detailed maps of the area and survey data. The construction task orders
         required the construction contractors to develop the detailed plans. Like MACTEC, the
         contractors competing for the KMTC construction work were afforded limited site visits to KMTC
         as part of the bidding process. Based on this limited information, the competing contractors
         submitted their bids. After contract award, the contractor selected for the construction
         conducted detailed site surveys as required by its task order.




9
 A “windshield survey” is a visual inspection generally conducted from a vehicle or cursory walk around the
building site that does not involve any soil testing, other physical examination of existing buildings, or any other
more detailed activities.
SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center                         Page 12
During detailed site survey work for Phases I and II, AMEC found numerous previously unknown features
that directly affected construction, including:

     •   large buried concrete foundations from destroyed Soviet-era buildings and underground storage
         tanks, both of which had to be removed before construction could begin;
     •   unsuitable building locations because the terrain on which buildings were to be constructed was
         too steep for the selected type of building, requiring the building site to be relocated; and
     •   an existing overhead power line that ran through the middle of the site was assumed during the
         solicitation process to be abandoned, but was subsequently found to be active and resulted in a
         significant delay to the project while ownership was determined and approval to move the line
         was obtained.

ECC, the construction contractor for Phase III, also found previously unknown features in conducting
detailed site surveys, including large buried foundations (see photo 5) and power lines that had to be
relocated. Consequently, both AMEC and ECC experienced schedule delays.


Photo 5: KMTC Phase III Construction – Previously Unknown
Buried Soviet-era Foundation (see arrows)




Source: SIGAR, March 12, 2011

The lack of a DPW-like capability to integrate site information before requests for proposals are released
contributed to the planning shortfalls identified above. CSTC-A officials told us that in January 2010,
CSTC-A established a new organization called the Installation Training Advisory Group (ITAG), which they
viewed as the answer to the problem. These officials indicated that ITAG has a DPW-like capability and
needs continued support and resources. In commenting on our April 2011 report on ANA facilities at
Mazar-e-Sharif and Herat, CSTC-A stated that it had recently activated ITAG in order to develop facility
sustainment capability of the Afghan Army and Police. 10 It further stated that this capability is at initial
operating capacity (six sites) and is waiting for the deployment of additional personnel to expand to
additional sites. In a May 2011 update, CSTC-A told us that the Department of Defense had provided
26 engineers to assist with establishing ITAG. Two requests for forces totaling 116 ITAG personnel were

10
 SIGAR Audit-11-9, ANA Facilities at Mazar-e-Sharif and Herat Generally Met Construction Requirements, but
Contractor Oversight Should Be Strengthened, April 25, 2011.
SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center                 Page 13
in the process of being filled as of August 2011. The full complement is expected to arrive no later than
November 2011.

Schedule Delays Appears to be a Systemic Issue

Schedule delays are not unique to KMTC. In addition to assessing the cost, schedule, and outcomes of
the task orders for work at KMTC, we reviewed an AFCEE analysis of all its construction projects in
Afghanistan to see if delays were a more widespread problem. Our review showed that the large
majority of all construction projects for CSTC-A experienced schedule delays. Specifically, AFCEE data
showed that 80 percent of AFCEE construction projects for CSTC-A, 33 of 41 in total between 2006 and
2010, experienced schedule delays. The delays ranged from less than 1 month to 24 months and
averaged 10 months. As discussed earlier, delays occurred due to a variety of factors, including
additional work added to task orders, unanticipated site conditions at the time task orders were
awarded, contractor performance problems, difficulties in delivering materiel, and security concerns.
Based on meetings with contractors, CSTC-A, AFCEE, and ANA officials, we concluded that aggressive
schedules driven by mission needs did not take factors that cause delays into account. This sets the
stage for projects to take longer than initially scheduled.

We discussed the AFCEE analysis with both AFCEE and CSTC-A officials, who were well aware that delays
were common on the majority of all CSTC-A construction projects. AFCEE officials told us that they try
to manage expectations by advising CSTC-A on how long they think it will realistically take to complete
construction. At the same time, they recognize the key to the transition of security to the ANA is
meeting its mission needs. CSTC-A tracks project delays and knows which delays are tolerable and
which are not. CSTC-A said that it is a difficult balancing act to be realistic, but at the same time not give
the contractors too much time as it could further delay project completions. AFCEE told us that if
contractors are given more time to construct, they will take the time. Schedules are purposely
aggressive to push the contractors to complete construction in the shortest time possible so that the
overall mission is successful.


QUALITY ASSURANCE SHORTFALLS IN PHASES I AND II CONTRIBUTED TO ELECTRICAL
PROBLEMS, BUT OVERSIGHT HAS IMPROVED IN PHASE III

Contract oversight was weak in Phases I and II, contributing to electrical problems, but AFCEE has
strengthened oversight in Phase III. In Phases I and II, the construction contractor (AMEC) and AFCEE,
failed to provide adequate quality control and quality assurance. For example, although the quality
assurance contractor (Versar) identified electrical problems as early as June 2008, AFCEE did not address
them until after fires occurred in November and December of that year. Repairing the electrical
problems increased the time to complete Phase I and II construction and cost as much as $4.3 million.
Improvements have been made as a result of these problems and have been incorporated into Phase III
construction oversight. In addition to reviewing oversight, we assessed whether the task order files
were complete. We found that the large majority of required documents were in the files, but the task
orders files contained incomplete and inconsistent information as to the reasons for modifications.

AFCEE Delayed Responding to Indications of Electrical Problems

Versar identified electrical issues at KMTC, but AFCEE officials did not address them until after fires
occurred. When AMEC submitted the as-built drawings in June 2008, Versar determined the work was
not in compliance with the National Electrical Code, as required by the contract. Versar also noted
electrical problems on June 17, 2008, in the Discrepancy and Non-Compliance (DNC) log, stating that

SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center                Page 14
electrical panel boards installed at buildings 138, 139 and 140 had no approved submittals. In all, Versar
logged eight electrical discrepancies for Phase II construction between June and December 2008.

However, AFCEE did not take action on the electrical issues until after five electrical fires occurred in
four separate buildings at KMTC. Between mid-November and mid-December 2008, electrical fires
occurred in buildings 138, 139, 140, and 141. Building 138 had a complete burnout of the main
electrical panel box. On December 16, 2008, an AFCEE COR in Kabul wrote an email to AMEC stating
that “every time we think we have a resolution we have another fire.” He also stated that “we need to
continue to take deliberate steps to correct what I believe are systemic problems throughout the project
site before someone is seriously hurt or worse.”

In January and August 2009, AFCEE’s CO advised AMEC of AFCEE’s concerns regarding the electrical
work.

     •   On January 15, 2009, AFCEE’s CO stated in a memorandum to AMEC that visual inspections of
         conditions at KMTC by AFCEE personnel indicated there were serious electrical problems in
         designated facilities, two of which were barracks housing roughly 600 ANA soldiers each. The
         CO also noted that AMEC had conducted an independent third-party audit that showed an
         alarming lack of quality control by the contractor. The CO stated that the level of craftsmanship
         was completely unacceptable and advised AMEC that it should be preparing a comprehensive
         corrective action plan for AFCEE’s review with a timeline to correct deficiencies that
         incorporates the results of the electrical reviews. The comprehensive corrective action plan that
         AMEC subsequently prepared is discussed below.
     •   On August 21, 2009, AFCEE’s CO issued a letter of concern 11 to AMEC regarding KMTC Phases I
         and II. It stated that site visits to KMTC by AFCEE personnel indicated insufficient progress had
         been made toward completing the latest corrective action plan briefed to AFCEE on July 13,
         2009. This plan was the third received for the Phases I and II work. The July 2009 plan indicated
         an overall completion date of September 12, 2009, but a related memo noted that Versar
         predicted a completion date of January 1, 2010. The CO stated that the schedule delay was a
         serious concern of AFCEE and must be remedied by AMEC immediately. AFCEE also told AMEC
         that the project was significantly behind schedule and over budget and that AMEC’s unfavorable
         performance had a negative impact on completing the work.

In discussing why they delayed taking action until December 2008, AFCEE officials stated that the
problems initially identified in June 2008 were not serious deficiencies, but, rather, were typical of
nearly all construction projects, and that it was not until the electrical fires occurred that the magnitude
of the issue became apparent. AFCEE officials also told us that the initial installation of the electrical
work looked sufficient and even had the correct specification requirements stamped on the supplies.
Finally, they stated that deficiencies were not identified until the electrical components began to fail.

Limited Oversight and Substandard Supplies Contributed to Electrical Problems

Two key factors contributed to the electrical problems going undetected before the fires. One was an
effort to make up for schedule delays without a commensurate increase in oversight. Delays to the start
of construction resulting from foundation problems and the need to relocate overhead power lines had
put the work 4 months behind schedule. In an attempt to get back on schedule, CSTC-A, through AFCEE,
instructed AMEC to shorten the time planned in its catch-up schedule to 2 months due to urgent mission

11
 Letters of concern are informal communications between AFCEE and its contractors.
SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center               Page 15
requirements of the expanding ANA. To shorten the time to 2 months, AMEC went from one shift to
three shifts. When AMEC went to three shifts, it did not bring on additional quality control personnel.
AMEC stopped detailed inspection of its subcontractors’ work and only did spot checks instead. The
COR, the only AFCEE COR in Afghanistan at the time, allowed AMEC to move to three shifts without
increasing quality control staff to meet the new completion date. Versar officials told us in a January
2011 meeting that AMEC’s quality control staffing and lack of subject matter experts (licensed
electricians) contributed to problems since AMEC often did not have a quality control person on site to
verify that the Afghan subcontractors understood and complied with National Electrical Code
requirements.

When AMEC went to three shifts, Versar requested additional personnel funding to allow for more
robust oversight through hiring additional electrical specialists. Versar, however, was not given
additional funding and, therefore, was unable to increase its staff when AMEC went from one to three
shifts. This resulted in limited review of AMEC’s subcontractor testing of material prior to acceptance
and no Versar quality assurance inspections on two of the three shifts as work was underway. The
existing funding provided for only one ex-patriot person (a U.S. citizen working outside the United
States) for 15 projects underway in Afghanistan. By way of comparison, according to Versar, similar
projects in Iraq were staffed with 21 ex-patriot persons to oversee 27 projects. 12 As a result, Versar’s
day-to-day service on Phases I and II was provided by three local nationals and one third-country
national.

A second factor that contributed to the electrical problems was that some electrical supplies were
substandard or counterfeit. AMEC’s quality control plan included preparatory inspections. The
preparatory inspections included verifying that all material and equipment were available, ensuring that
conforming documentation was submitted and approved, and physically examining required materials
and equipment to ensure that they conformed to the plans and were stored properly. AMEC’s quality
control processes did not detect that its Afghan subcontractors working on fixed-price contracts were
substituting counterfeit or mislabeled equipment. AFCEE officials told us that the problem resulted from
CSTC-A’s request to accelerate the construction schedule, which led AMEC to deviate from the normal
supply chain. These suppliers had not been used before and are no longer being used by AMEC. While
the subcontractors’ use of counterfeit or otherwise noncompliant equipment raises significant questions
about AMEC’s oversight of its subcontractors, it also suggests fraud. AFCEE has decided not to pursue
the possibility of fraud because AMEC is no longer using these suppliers. Regardless of supplier,
however, if AMEC had followed its quality control plan, it would have physically examined required
equipment to ensure that they conformed to the plans. 13

CSTC-A has Paid More for the Electrical Work than Necessary

CSTC-A, which funded Phases I and II work at KMTC through AFCEE, may end up paying for the electrical
work three times—more than required under the terms of its contract with AMEC. CSTC-A has already
paid as much as $4.3 million for electrical repairs and may pay more in the future under facility
maintenance contracts to the extent further repairs are needed.

     •   CSTC-A initially paid for the original electrical work as part of Phases I and II construction.



12
  Ex-patriots generally have more training and experience with western construction standards than do
third-country and local national personnel and, therefore, provide expertise not otherwise available.
13
  This matter was referred to SIGAR’s Investigations Directorate for further review.
SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center                     Page 16
    •   To address the electrical repairs for Phase I construction, AFCEE added as much as $1.5 million
        to the Phase I task order for, among other things, completing electrical repairs in the barracks
        buildings and the electrical distribution system; testing following repairs to determine that
        cables, insulation, and connections for power distribution lines were installed properly and did
        not have ground faults; and performing additional electrical design reviews and revisions to
        respond to Versar’s comments to the building electrical repair work plans. All these items relate
        directly to repair of the original substandard electrical work. This modification also involved
        non-electrical work, but did not identify the amount of funds allocated for the various work
        elements. Therefore, we could not determine how much of the $1.5 million was for the
        electrical repairs.
    •   To address the electrical repairs for Phase II construction, AFCEE added $2.8 million to complete
        electrical repairs.
    •   The electrical repairs were never completed. AMEC’s task order modifications for the electrical
        repairs were eventually canceled by AFCEE due to security issues, the ANA’s decision to occupy
        the building as is, and unauthorized electrical modifications being made by the ANA at the same
        time. CSTC-A took delivery of KMTC Phase I and II construction on December 24, 2010.
    •   Facilities built for KMTC Phases I and II were then transferred to a facility maintenance contract.
        Under this separate contract, the U.S. Army Corps of Engineers is providing operations and
        maintenance for all ANA facilities. As construction projects are completed, they are transferred
        to the maintenance contract. According to AFCEE officials, to the extent further electrical
        problems emerge, repairs will be paid under this facility maintenance contract. This may result
        in the CSTC-A paying yet again for electrical problems resulting from design flaws or iimproper
        materials under Phase I and II construction.

AFCEE’s decision to pay for the electrical repairs was inappropriate. Although AMEC was awarded
cost- reimbursable task orders, it, in turn, awarded firm, fixed-price subcontracts for virtually all the
construction work. Under firm-fixed-price subcontracts, the subcontractor commits to performing the
work at the agreed-upon price and has to absorb any increased cost unless it relates to factors outside
the subcontractor’s control. At KMTC, the increased costs were due to poor subcontractor performance
and AMEC quality control. Therefore, AMEC should have demanded that its subcontractors pay the cost
of the electrical repairs, rather than requesting that AFCEE pay the costs. In discussing this matter with
AFCEE officials, they said that they lacked the personnel to pursue the matter. They added that the
government shared the responsibility for what happened, as it directed AMEC to make up for schedule
delays without providing for increased oversight and that, at the time, AFCEE was focused on supporting
the troop surge in Iraq.

In further discussing the results of our work with AFCEE officials, they agreed in principle that CSTC-A
should not have had to pay for the repairs, but were uncertain as to how they could recoup funds since
the task orders were complete. In addition, they stated that the Afghan subcontractors lacked the
financial resources to pay for any repairs, leaving AMEC to cover the costs. Because AMEC’s contract
with AFCEE is cost-plus-fixed-fee, the AFCEE officials asserted that they had no choice but to provide the
additional funds to AMEC to cover the cost of the electrical repairs

However, the completion of the task orders does not necessarily prevent AFCEE from recovering excess
payments it made to AMEC because the government is never bound to accept fraudulent work.
Furthermore, AFCEE is not required to pay for the same work more than once, even under a cost-plus-
fixed-fee contract, because it was AMEC’s responsibility to ensure that the work performed under the
contract, including the work of its subcontractors, met the terms of the contract. Contractors may only

SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center              Page 17
request and receive additional funds from the government under cost-plus-fixed-fee contracts for work
beyond what was called for under the original contract or because of conditions beyond the contractor’s
control. In the case of KMTC, neither of these conditions applied.

AFCEE Strengthened Contract Oversight for Phase III Construction

Although we identified quality control and quality assurance shortfalls in Phases I and II, we found that
oversight of Phase III has been extensive. We reviewed daily and weekly activity reports, construction
deficiency logs, and contractor non-compliance logs and found that they contain considerable
information on a variety of topics, including quality, status, and key events. An AFCEE official also told
us that they have learned a number of lessons from the electrical problems experienced in Phases I and
II. As a result, according to AFCEE, it has changed its procedures to require that construction contractors
have a full time quality control individual on site and subject matter experts on each construction site to
oversee the more complicated construction aspects of each project. It is also reportedly providing
funding for a robust quality assurance presence. We asked for documentation identifying these changes
and were told that it was an iterative process communicated through individual task orders rather than
through a single document. In touring KMTC construction in March 2011, we observed a number of
Versar officials on site.

Contract Files Did Not Always Explain Reasons for Modifications

Although our review of the KMTC contract files showed that they were largely complete, we also found
that they did not clearly document the reasons for modifying the contract. According to FAR Subpart
4.8, contract files shall contain documentation sufficient to constitute a complete history of the
transaction. This documentation serves to provide a basis for informed decisions, to support actions
taken, to provide information for reviews and investigations, and to furnish essential facts in the event
of litigation or congressional inquiries. To that end, the FAR lists 42 items that are normally included in
the contract file, as applicable. AFCEE expands on that list in its contract file checklist, which listed
107 items that, if applicable, should be included in the contract file. Applicable items included the
purchase request or procurement directive, the acquisition plan, the price negotiation memorandum,
and staff judge advocate coordination.

We reviewed AFCEE’s official contract file for all phases of KMTC construction to determine the extent
to which items required by the checklist were included in the file. Our review showed that as of
April 25, 2011, the files were largely complete. However, although FAR Subpart 4.8 directs that contract
files contain sufficient documentation to constitute a complete history of the transaction, the KMTC task
order files contained incomplete or contradictory information as to the reasons for modifying the
contract. The reasons for changes are a key part of the task order history. The modifications simply
noted the value of ceiling price increases or changes to task order dates. We were able to identify the
reasons for some of the modifications from a review of other file documentation, particularly the price
negotiation memorandums, technical evaluations, and email traffic. However, sometimes these
documents contained contradictory information. Modification 8 to KMTC task order 5, for
Phase I construction, illustrates the lack of clarity, as follows:

    •   The modification itself, dated January 20, 2010, states that it was to increase the ceiling price
        and extend the task order dates.
    •   The November 10, 2009, technical evaluation for the modification cost proposal states that the
        AMEC proposal was for additional funding and time required to undertake a number of specific
        activities, including completing the gymnasium heating and air conditioning system and

SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center              Page 18
         additional storm water grading, as well as completing electrical repairs and performing
         additional electrical design reviews and revisions.
     •   The January 12, 2010, post negotiation memorandum describes the entire modification as an
         estimate for completion because of electrical problems with the buildings constructed by AMEC
         due to faulty construction by local contractors. The overall $1.5 million cost increase provided
         through the modification is broken down by major cost elements, such as labor, subcontracts,
         and indirect costs, but is not allocated to the specific activities identified in the technical
         evaluation.


KMTC IS NOT SUSTAINABLE WITHOUT CONTINUED U.S. ASSISTANCE

CSTC-A funded contracts to sustain KMTC, as well as other ANSF facilities, but the funding under these
contracts is being expended faster than anticipated, according to U.S. Army Corps of Engineer officials.
The Afghan government is ultimately responsible for sustaining U.S. funded facilities without U.S.
assistance. However, the Afghan government does not have the financial or technical capacity to
sustain KMTC or other ANSF facilities once they are completed. In the interim, the United States and the
international community have provided funding to sustain ANA facilities, including KMTC, and to train
Afghans to do so.

CSTC-A, using Afghanistan Security Forces Funds, provided the U.S. Army Corps of Engineers with
funding to award two sustainment contracts for ANSF facilities. In July 2010, the U.S. Army Corps of
Engineers awarded two contracts— consisting of 1 base year plus 4 optional years—one for $457 million
to cover facilities in northern Afghanistan and one for $357 million for facilities in southern Afghanistan.
The contracts’ fourth option year may be exercised if all the ANSF facilities are not transferred to the
Afghans by 2014. Both contracts were awarded to ITT Corporation. KMTC facilities are covered under
the contract for northern Afghanistan and were transferred on a timely basis. This is an improvement
over prior practices, where we found that AFCEE did not arrange for the facilities at Mazar-e-Sharif and
Herat to be added to the sustainment contract for CSTC-A funded facilities in Afghanistan in a timely
manner. 14

U.S. Army Corps of Engineer officials told us in March 2011 that both sustainment contracts will reach
their fund ceilings earlier than anticipated, and options for continuing sustainment are under
consideration. These officials said that in June 2012, they will have to begin the acquisition process to
award new contracts. In discussing the results of our work with CSTC-A officials, they confirmed that in
spring 2012 they will take action to ensure continued sustainment of ANA facilities, including KMTC. 15


CONCLUSION

As the U.S. military transfers responsibility to the ANA to provide for its own security, KMTC is a critical
component of CSTC-A’s training mission and the overall strategy to transition security to Afghan security
forces. However, we identified a number of specific problems with KMTC, and there is a need to ensure
that the problems we identified at KMTC do not recur in ongoing and future projects. Construction at
KMTC has taken longer than originally planned and costs more than originally budgeted due to a variety

14
  SIGAR Audit-11-9, ANA Facilities at Mazar-e-Sharif and Herat Generally Met Construction Requirements, but
Contractor Oversight Should Be Strengthened, April 25, 2011.
15
  SIGAR has initiated an audit of the implementation of the two operations and maintenance contracts for the
sustainment of ANA and ANP facilities.
SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center                   Page 19
of factors. These included, among other things, work added to the original task orders and
unanticipated site conditions. The current planning process failed to identify important site conditions,
which, in turn, led to delays and higher costs. We also found that AFCEE has paid as much as $4.3
million for electrical repairs that AMEC’s subcontractors should have been responsible for covering
through their own funds. Finally, we found that the KMTC task order files contained incomplete or
contradictory information as to the reasons for modifying the contract. Without complete and
consistent information it is not possible to ascertain what happened over the life of the work at KMTC.


RECOMMENDATIONS

To strengthen construction planning for future work at KMTC and future construction projects in
support of the ANSF, ensure appropriate use of government funds, and strengthen contractor oversight,
we are making two recommendations to the Commanding General, CSTC-A, in coordination with the
Director, AFCEE, to:

    1. Direct that site surveys done in conjunction with the KMTC conceptual master plan be more
       detailed, including topography and location of existing utilities, so that a more complete picture
       of additional construction projects can be provided to bidders, thus allowing contract proposals
       to more accurately reflect reality. We support CSTC-A’s efforts to develop the organic capability
       to do this and in the interim recommend that CSTC-A, in concert with AFCEE, use existing
       planning contracts to provide the integration function.
    2. Ensure that conceptual master plans for future construction projects in support of the ANSF
       contain more detailed information, including topography and the location of existing utilities, to
       facilitate the preparation of more accurate contract proposals.
To strengthen contractor oversight and ensure appropriate use of government funds, we are making
two recommendations to the Director, AFCEE, to:

    3. Ensure that, in the future, KMTC contract and task order files contain complete and consistent
       information regarding reasons for modifications to the contract and task orders.
    4. Seek reimbursement from the Phase I and II contractor, AMEC, for the cost of electrical repairs
       related to poor performance by its Afghan subcontractors.


COMMENTS

CSTC-A and AFCEE provided comments on a draft of this report, which are included in appendices II and
III, respectively. They also provided technical comments, which we incorporated, as appropriate.

CSTC-A concurred with our first recommendation to strengthen conceptual master planning at KMTC,
stating that detailed master planning for KMTC is in progress. CSTC-A also noted that because the size of
the ANA is now capped at 195,000, “throughput” should be more easily defined and future
requirements limited. CSTC-A concurred with our second recommendation, indicating that it is currently
developing a comprehensive detailed master plan for KMTC via a contractor and that it is actively
pursuing robust geotechnical and existing utility information, where available. CSTC-A also provided
general comments, some of which provided updated information. We have reflected these comments
in the report, as appropriate.



SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center            Page 20
AFCEE responded to our third recommendation by stating that the KMTC task order file has been
updated and that the file will be reviewed after each modification to ensure that it is complete and
accurate. In response to our fourth recommendation, AFCEE stated that it will not seek reimbursement
from AMEC because this was not a case where the prime contractor was willfully avoiding its
responsibility or acting in bad faith. AFCEE further stated that several other contractors were
experiencing the same issue with counterfeit parts and that it would be fruitless for AMEC to go after
the subcontractors because there is no bonding of work in Afghanistan. As a result of AFCEE’s decision,
the contractor will not be held financially accountable for poor contract performance, and the U.S.
government will pay the bill. We disagree with this decision. AFCEE is not required to pay for the same
work more than once, even under a cost-plus-fixed-fee contract. It is AMEC’s responsibility to ensure
that all work performed under the contract, including the work of its subcontractors, meets the terms of
the contract. Therefore, we are retaining the recommendation.




SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center          Page 21
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) review of three construction task orders at the Kabul Military Training Center
(KMTC). These task orders were funded by the Combined Security Transition Command-Afghanistan
(CSTC-A) and implemented by the Air Force Center for Engineering and the Environment (AFCEE). KMTC
construction includes barracks, classrooms, and administration buildings, training facilities, and
associated utilities including power generation and wastewater treatment. This report is part of a series
of performance audits by SIGAR examining contract outcomes, costs, and oversight. This report
(1) examines construction at KMTC, including changes in cost and schedule, the reasons for changes, and
whether construction met contract requirements; (2) assesses construction oversight and the
completeness of contract files; and (3) evaluates plans for sustaining KMTC facilities once constructed.

To examine whether contract modifications and construction at KMTC met the terms of the task orders,
SIGAR met with officials from AFCEE headquarters in San Antonio, Texas; AFCEE-Afghanistan; CSTC-A;
the two construction contractors—AMEC Earth and Environmental, Inc. (AMEC) and ECC International;
the quality assurance contractor, Versar, Inc., and MACTEC, the contractor responsible for site
conceptual master planning. We reviewed the contract documentation, including statements of work,
modifications, email documents, and contracting officer correspondence. We conducted a site
inspection in March 2011, and our engineer inspected the site again in May 2011. During our site visits,
we inspected the interior and exterior of all buildings, as well as the grounds within the perimeter of the
construction sites. Site inspections were documented with photography. We also reviewed electronic
files and correspondence from AFCEE-Afghanistan and CSTC-A. We did not rely on computer-processed
data to determine construction status. We obtained documentation available on the prime and quality
assurance contractor Web sites (designed and provided in accordance with AFCEE contracts).

To assess construction oversight, we met with officials from AFCEE, AFCEE-Afghanistan, Versar, Inc., and
CSTC-A. We reviewed criteria and guidance in the Federal Acquisition Regulation, the quality assurance
reports, and AFCEE guidance for construction to determine if the contracting process and oversight of
the contracts met AFCEE regulations and contract requirements. Additionally, we reviewed AFCEE
guidance to determine the roles and responsibilities for AFCEE and AFCEE-Afghanistan personnel.

To examine plans for sustaining constructed facilities, we held discussions with officials from AFCEE San
Antonio, AFCEE-Afghanistan, and the U.S. Army Corps of Engineers. We obtained information on the
terms of the sustainment contracts and plans for future contracts when the current ones expire.

We assessed internal controls over contract administration and oversight procedures through interviews
with contracting officials and reviews of relevant contract files. The results of our assessment are
included in the body of this report.

We conducted work at AFCEE headquarters in San Antonio, Texas; AMEC’s Corporate Office in Plymouth
Meeting, Pennsylvania; Vesar’s office in Westminster, Colorado; MACTEC’s office in Kennesaw, Georgia;
Kabul, Afghanistan; and Washington, D.C., from December 2010 to October 2011, in accordance with
generally accepted government auditing standards. These standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. This audit was conducted by the
office of the Special Inspector General for Afghanistan Reconstruction under the authority of Public Law
110-181, as amended; the Inspector General Act of 1978; and the Inspector General Reform Act of 2008.


SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center             Page 22
APPENDIX II: COMMENTS FROM THE NATO TRAINING MISSION-AFGHANISTAN/COMBINED
SECURITY TRANSITION COMMAND-AFGHANISTAN




SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center   Page 23
SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center   Page 24
SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center   Page 25
SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center   Page 26
SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center   Page 27
APPENDIX III: COMMENTS FROM THE AIR FORCE CENTER FOR ENGINEERING AND THE
ENVIRONMENT




SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center   Page 28
           (This performance audit was conducted under the audit project code SIGAR-039A).




SIGAR Audit-12-2 Contractor Performance and Oversight / Kabul Military Training Center       Page 29
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              publically released reports, testimonies, and
                              correspondence on its Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     2530 Crystal Drive
                                     Arlington, VA 22202
